      Department of Homeland Security




       Costs Claimed by Brunswick Volunteer Fire
     Company under Fire Station Construction Grant
              Number EMW-2009-FC-00409




             American Recovery and Reinvestment Act of 2009



OIG-12-113                                                    August 2012

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov


                                      AUG 13 2012

MEMORANDUM FOR:              Elizabeth M. Harman
                             Assistant Administrator, Grant Programs Directorate
                             Federal Emergency Management Agency

FROM:                        Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT:                     Costs Claimed by Brunswick Volunteer Fire Company, Inc.
                             Under Fire Station Construction Grant Number EMW-2009-
                             FC-00409R

Attached for your information is our final letter report, Costs Claimed by Brunswick
Volunteer Fire Company, Inc. Under Fire Station Construction Grant Number EMW-2009-
FC-00409R. Since the report contains no recommendations to the Federal Emergency
Management Agency, we did not solicit formal comments and no further response to
this report is necessary.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Major contributors to this report are Roger La Rouche, Director of Recovery Act Audits;
William Gillies, Audit Manager; Gary Greer, Auditor; and Jeanne Genao, Report
Referencer.

Please call me with any questions, or your staff may contact John E. McCoy II, Deputy
Assistant Inspector General for Audits, at (202) 254-4100.

Attachment
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Background
   The American Recovery and Reinvestment Act of 2009 (Recovery Act), as amended,
   appropriated $210 million to the Federal Emergency Management Agency (FEMA) for
   competitive grants for modifying, upgrading, or constructing nonfederal fire stations.
   On June 10, 2010, FEMA awarded a grant of $2,431,161 to the Brunswick Volunteer Fire
   Company, Inc. (Fire Company), Brunswick, Maryland, for constructing a new fire station.

   The grant specified a period of performance from June 10, 2010, to June 9, 2013. As of
   March 2012, the Fire Company had completed construction of the new fire station (see
   figure 1) and had received reimbursement of $2,431,161 from FEMA.




   Figure 1. Brunswick Volunteer Fire Company Station No. 5.
   Source: Brunswick Volunteer Fire Company.

   Under the terms of the grant, the Fire Company agreed to use the grant funds according
   to FEMA’s American Recovery and Reinvestment Act Assistance to Firefighters Fire
   Station Construction Grants Guidance and Application Kit (“Guidance and Application

www.oig.dhs.gov                               2                                     OIG-12-113
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Kit”), and to comply with Office of Management and Budget (OMB) Circular A-87,
   Revised, Cost Principles for State, Local, and Indian Tribal Governments, and the Uniform
   Administrative Requirements for Grants and Cooperative Agreements to State and Local
   Governments in 44 Code of Federal Regulations Part 13.

   The grant also includes requirements for complying with OMB Circular A-133, Revised,
   Audits of States, Local Governments, and Non-Profit Organizations, and Recovery Act
   provisions for submitting quarterly recipient reports to the Federal Government on the
   use of Recovery Act funds; paying prevailing wages as determined by the Secretary of
   Labor; and using American-made iron, steel, and manufactured goods. The objective of
   this audit was to determine whether costs claimed were allowable, allocable, and
   reasonable according to the grant agreement and applicable Federal requirements.

   Results of Audit
   We determined that the Fire Company incurred sufficient allowable, allocable, and
   reasonable costs to earn the $2,431,161 provided under the grant. In addition, we
   concluded that the Fire Company complied with Recovery Act requirements for
   submitting quarterly Recovery Act reports to the Federal Government and for ensuring
   that the contractors paid prevailing wages and used American-made iron, steel, and
   manufactured goods in the construction of the new fire station. However, the Fire
   Company did not follow OMB guidance in determining the number of jobs created by
   the Recovery Act.

   Compliance With Requirements for Reporting, Buying American, and Paying Prevailing
   Wages

   Section 1512 of the Recovery Act requires recipients to submit quarterly reports to the
   Federal Government that include information on funds received and expended, project
   activities, and the number of jobs created and retained. The Recovery Act also
   stipulates that recipients use American-made iron, steel, and manufactured goods
   (Section 1605) and that laborers and mechanics be paid, at a minimum, prevailing wage
   as determined by the Secretary of Labor under 40 U.S.C. Chapter 31, Subchapter IV
   (Section 1606).

   We verified that the Fire Company submitted the required quarterly reports. The
   reports submitted for fiscal year 2011 showed the creation of 35 jobs “associated with
   construction of the building as well as administration and manager positions.” OMB




www.oig.dhs.gov                                3                                     OIG-12-113
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


   Memorandum M-10-081 requires grantees to estimate the number of Recovery Act jobs
   created based on (1) work performed by the grantees only in the quarter being reported
   (not cumulative); (2) work performed by subrecipients; and (3) a calculation that divides
   the total actual hours worked in funded jobs by the number of hours representing a full
   work schedule for the kind of job being estimated. This calculation converts part-time
   and temporary jobs into full-time equivalent positions. Instead of computing the
   number of full-time equivalent positions, the Fire Company reported an estimate of the
   number of workers on the job site on any given day. We are not recommending any
   corrective action regarding this matter because OMB Memorandum M-10-342 states,
   “Changes to prior [quarterly recipient] reports may not be initiated for the ‘Number of
   Jobs’ field.”

   For the other compliance areas, we confirmed that the Fire Company included the
   prevailing wage requirement in its public solicitation for construction bids and the
   manufacturing source identification requirements in the building specifications.
   Moreover, the Fire Company developed sufficient controls to ensure that these
   provisions were honored. Controls included a requirement for subcontractors and
   suppliers to comply with the Buy American provisions, review and certification of
   invoices by the architect, and a requirement for contractors to submit payroll reports
   showing payment of prevailing wages.




   1
     Updated Guidance on the American Recovery and Reinvestment Act – Data Quality, Non-Reporting 

   Recipients, and Reporting of Job Estimates, December 18, 2009.

   2
     Updated Guidance on the American Recovery and Reinvestment Act, September 24, 2010.


www.oig.dhs.gov                                     4                                           OIG-12-113
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   The objective of this audit was to determine whether costs claimed by the Fire Company
   were allowable, allocable, and reasonable according to the grant agreement and
   applicable Federal requirements. This audit covered costs of $2,459,660 incurred by the
   Fire Company from June 2010 to April 2012.

   In conducting our audit, we—

   •	 Obtained and reviewed the Recovery Act, the grant application and award, the grant
      Guidance and Application Kit, and Federal cost principles and grant administrative
      requirements;

   •	 Interviewed Fire Company personnel to gain an understanding of their accounting
      system and the applicable internal controls;

   •	 Reviewed the Fire Company’s internal controls specifically related to our objectives;

   •	 Examined contractor invoices and other evidence supporting 100 percent of FEMA
      project costs;

   •	 Reviewed accounting transactions related to purchases, payments, and receipt of
      FEMA reimbursements;

   •	 Used the grant provisions and applicable Federal requirements to determine
      whether amounts claimed were eligible for reimbursement;

   •	 Performed fraud detection procedures;

   •	 Inspected the new fire station and surrounding property; and




www.oig.dhs.gov                               5	                                     OIG-12-113
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   •	 Obtained and reviewed source documents to determine whether the Fire Company
      complied with requirements for reporting; buying American-made iron, steel, and
      manufactured goods; and paying prevailing wages.

   We conducted this performance audit between March 2012 and July 2012, pursuant to
   the Inspector General Act of 1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.




www.oig.dhs.gov                              6	                                    OIG-12-113
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   Appendix B
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer
   Recovery Act Coordinator
   Administrator, Federal Emergency Management Agency
   Audit Liaison Office, Federal Emergency Management Agency

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                             7                              OIG-12-113
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
